        U.S. DEPARTMENT OF THE INTERIOR

        OFFICE OF
        INSPECTOR
        GENERAL

      FIREARMS MANAGEMENT
      An assessment of firearms inventory and control for
      Department of the Interior law enforcement programs




Report No.: PI-AT-MOI-0002-2009                             September 2009
                   lJnire.J .'~tJtes IJermrtrnent of tht IJ... t(~riof
                               orFICE JP 1; \SPECTOP G J:-,IEPJ\l,
                                    \V).bltgtmi., D; lliJAo

                                                                          SEP 2 5 2009



Memorandum

To:            Secretary Salazar

From:          Mary L. Kendall
               Acting Inspector
                                   <---y/~..MP
                                  Gener~    i_


Subject:       Assessment Report on Firearms Management by Department of the Interior Law
               Enforcement Agencies

       This memorandum transmits our report detailing the results of our assessment of firearms
inventory and control for Department ofthe Interior law enforcement programs.

         To provide background, beginning in 2001, the Office ofInspector General (OIG) has
devoted special attention to Departmental law enforcement programs. In 2002, the OIG released
a report detailing significant need for reform of the law enforcement programs and a critical need
to establish a centralized office directly report to the Office of the Secretary. As a result of the
report, the Secretary of the Interior issued a directive to implement changes within the law
enforcement programs throughout the Department.

        Since 2002, the OIG has reported on law enforcement and security issues including the
following: National Park Service protection of Icon Parks, conditions at Indian Country
detention centers, security at Bureau of Reclamation dams, the special agent program of the U.S.
Fish and Wildlife Service, and U.S. Park Police management and operations. Overall, the
organizational management and effectiveness of Departmental law enforcement programs have
significantly improved since our 2002 report. There is now a centralized Office of Law
Enforcement and Security reporting to the Office of the Secretary through a Deputy Assistant
Secretary. In addition, and with limited exception, each law enforcement program is now led by
a Senior Executive manager who has direct access to the bureau directors. These changes have
provided the desired increased managerial oversight capacity for the law enforcement programs.

       The OIG continues to review Departmental law enforcement and security programs and
operations considering them to be high risk programs. Recently, we completed an assessment of
the management of firearms under control of the law enforcement programs.

        Despite the increased managerial oversight mentioned above, we still found numerous
programmatic failures, and deficient internal controls regarding the security of firearms. As a
result, we question the ability of the bureaus to accurately account for firearms under their
control. In addition, we were surprised to find that the Department has no standards for the
physical security of law enforcement firearms stored in weapon caches across the nation. We
also noted several occurrences where law enforcement managers appeared to have little or no
appreciation of the need to have accurate accounting of Departmental firearms.

        Our report contains 10 recommendations, which, if implemented, should correct
deficiencies in firearms management and improve firearms accountability throughout the
Department. We would appreciate being kept apprised of the actions the Department takes on
our recommendations as we will track the status of their implementation. Please forward a
written response to this office within 90 days, identifying plans to address the findings and
recommendations cited in this report.

        If you have any questions about this report, please do not hesitate to contact me at
(202) 208-5745 or your staff may contact my Deputy Assistant Inspector General for
Investigations, Scott Culver, at (202) 208-6945.

Attachment
cc:   Deputy Secretary
      Assistant Secretary Fish and Wildlife and Parks
      Assistant Secretary for Policy, Management and Budget
      Assistant Secretary for Indian Affairs
Table of Contents

Introduction ...................................................................................... 1



Results in Brief ................................................................................ 3



Accountability .................................................................................. 4

Regulations and Directives Governing Firearms Accountability........ 4

Site Visits ..............................................................................................5

Managing Firearms Inventories ......................................................... 9

Missing Firearms ............................................................................... 11



Training ............................................................................................ 13



Acquisition, Retention, and Disposal ....................................... 14

Acquisition .......................................................................................... 14

Retention ............................................................................................. 14

Disposal ............................................................................................... 15



Security of Firearms Caches ....................................................... 17



Recommendations ......................................................................... 19
INTRODUCTION    The loss of firearms by federal law enforcement agencies poses
                serious risks to the public, including the risks that missing firearms
                may be used to inflict bodily harm or to further criminal activity. In
                2003, the General Accounting Office, now known as the Government
                Accountability Office (GAO), reported the National Park Service was
                missing, lost, or had 133 firearms stolen from them.1 Five years
                later, two of those firearms were discovered in a Georgia pawn shop.
                An Office of Inspector General (OIG) for the Department of the
                Interior (DOI) investigation revealed that a retired commissioned
                law enforcement manager had taken advantage of weak internal
                accountability measures and stole the weapons prior to retiring. Both
                he and his son later pawned those firearms for cash.


                In another case, a senior U.S. Fish and Wildlife Service (FWS) law
                enforcement official failed to return his service weapons after his
                retirement in February 2004. We discovered that these firearms
                were missing during our 2006 assessment of the FWS special agent
                program. The firearms were subsequently returned to FWS only
                after OIG agents questioned the former official about the missing
                weapons.


                The Department has eight law enforcement programs with over
                4,000 commissioned personnel working to protect natural resources,
                national icons and monuments, millions of visitors, and over 67,000
                employees. All Department law enforcement programs store
                firearms in reserve for future operational needs. These caches,
                generally consisting of handguns, shotguns, and rifles, are located at
                various sites across the country. The number of firearms stored in
                these caches depends on the function of the location. We found that
                programs with armories at the Federal Law Enforcement Training
                Center (FLETC) in Glynco, GA, store hundreds of firearms in their
                respective caches. In contrast, we found caches containing as few as
                nine.




                                                                            
                1 GAO-03-688 Firearms Control: Federal Agencies Have Firearms Controls,

                but Could Strengthen Controls in Key Areas.




                                        Page 1

                 
Law enforcement firearms are expected to be properly inventoried
and securely guarded. The objective of our assessment was to
determine if adequate measures exist to ensure the accountability of
firearms managed by Department law enforcement entities. We
reviewed and evaluated hundreds of documents related to firearms
accountability, including Department and bureau policies and
procedures and inventory records. We conducted over 50 interviews
of law enforcement personnel and support staff. We visited 26 sites
representative of Department and bureau law enforcement programs
where cached weapons are being stored. Lastly, we inspected 1,334
firearms stored at those locations to determine their level of security
and if they were properly inventoried.


This report presents the results of our assessment and is part of
ongoing efforts by the OIG to examine Departmental law
enforcement programs and homeland security issues.




             Page 2

 
RESULTS IN BRIEF    All bureaus have policies and procedures designed to control and
                    safeguard property that are generally consistent with Department
                    standards and other federal regulations. Despite these policies and
                    procedures, we found that most DOI law enforcement programs
                    could not accurately account for their cached firearms. Inventories
                    were found to be inaccurate and those responsible for firearms
                    accountability did not always follow established procedures for
                    conducting periodic inventories or reporting and investigating
                    missing firearms. We found 373 inventory discrepancies out of the
                    1,334 firearms we physically handled. These discrepancies include:
                    firearms listed on inventories but not present; firearms present, but
                    not listed on inventories; and administrative errors such as lost and
                    unprocessed paperwork or transposition errors. Consequently, the
                    Department cannot accurately account for the number of law
                    enforcement firearms it has or where those firearms are actually
                    located.


                    Fifty percent of the law enforcement personnel entrusted with
                    maintaining firearms caches had no property management or
                    inventory training. The Department has no requirement that
                    firearms property custodians receive such training. Most of those
                    individuals obtained familiarization on their own volition or from
                    information passed down from their predecessors.


                    Acquisition and disposal of firearms vary depending on a bureau’s
                    operations and structure. Some bureaus manage the acquisition and
                    disposal process nationally from a central location; others leave these
                    activities for regional or local offices.


                    The Department has no standards for the physical security of
                    firearms caches. Although all firearms caches we observed were
                    secured under some type of access control, the degree of physical
                    security varies greatly among bureaus and intra-bureau locations.
                    Some bureaus have installed multi-layered security systems as
                    control measures; others have minimal controls leaving them
                    vulnerable to theft.




                                  Page 3

                     
ACCOUNTABILITY            In 1986, the Department issued its Interior Property Management
                          Directives (IPMD) to comply with requirements in Title 31 of the U.S.
                          Code, dealing with agency accounting and financial management.
                          The Office of Management and Budget published Circular A-123 in
                          1995 requiring federal agencies to: (1) establish a management
                          control system that provides reasonable assurance that assets are
                          safeguarded against waste, loss, unauthorized use, and
                          misappropriation; and (2) ensure that transactions are promptly
                          recorded, properly classified, and accounted for in order to prepare
                          timely accounts and reliable financial and other reports.2


REGULATIONS AND           The IPMD classifies firearms as sensitive property along with
DIRECTIVES                museum property and requires an annual physical inventory of such
GOVERNING                 property. The IPMD does not further define firearms as dangerous
FIREARMS                  property or include firearms in its definition of hazardous materials,
ACCOUNTABILITY            which it refers to as items that “may cause or significantly contribute
                          to an increase in mortality” or “pose a substantial present or
                          potential hazard to human health.”


                          The Department has generally recognized the sensitivity of managing
                          firearms programs through its Personal Property Management
                          Review Guideline published in November 2007. That document
                          specifically requires firearms accountability be reviewed as part of
“The proper
stewardship of            the Property Management Internal Control Review process.
Federal resources
is a fundamental          While we found extensive Departmental regulation on the
responsibility of         management and accountability of museum property, no similar
agency managers
                          specific guidance exists at the same level for the accountability of law
and staff.”
                          enforcement firearms. One Department property management
Federal Managers’         specialist was concerned with this lack of guidance and said that he
Financial Integrity Act
                          “was surprised to hear that there are more controls in place for
of 1982
                          museum property than there are for firearms.”


                          We found each law enforcement program generally issued and
                          published firearms accountability policies and procedures through
                                                                                      
                          2Office of Management and Budget Circular A-123, Management
                          Accountability and Control, Executive Office of the President, June 21, 1995,
                          Revised December 21, 2004.




                                                  Page 4

                           
               e-mail distribution to their law enforcement and security officers.
               Firearms accountability policies and procedures were also published
               in law enforcement general orders and standard operating
               procedures. We also learned that bureaus had instituted firearms
               accountability policies and procedures through their respective
               property management regulations.


               We note that both the Code of Federal Regulations and FWS define
               firearms as dangerous property in their regulations on reutilization
               and disposal of personal property.3


                   RECOMMENDATION 
                   1. The Department should reclassify firearms from sensitive to
                   dangerous property and establish inventory guidance
                   commensurate to this enhanced classification.


SITE VISITS    We found varying degrees of perspectives and attitudes among
               firearms custodians about ensuring the accuracy and control of
               bureau law enforcement firearms inventories. While some displayed
               significant attention to the accuracy and control of their firearms
               inventories, others failed to grasp the necessity of properly
               accounting for their program’s firearms. Nearly half the sites we
               visited were unable to produce an accurate firearms inventory that
               we could reconcile using the official Departmental property
               management system. The official inventory lists for these sites did
               not support the physical inventories of cache weapons we recorded.


               We discovered inconsistencies in the diligence paid to firearms
               inventories at most National Wildlife Refuge System (NWRS)
               locations we visited. During a review of the NWRS armory at FLETC,
               where approximately 400 weapons were stored, we found that the
               NWRS had not conducted an official inventory for over two years.
               NWRS belatedly conducted an inventory of those weapons in
               response to our data request. When questioned about the lack of
               annual inventories, the NWRS official responsible for those firearms
               said “you’re not going to like what I’m about to say” and confessed
                                                                           
               3   41 C.F.R. § 101-42.001; 310 FW 8.




                                       Page 5

                
that he has refused to conduct the required inventories because of
inaccurate inventory reports he received from NWRS headquarters.
We learned that prior to his assignment to FLETC, a paid student
intern had been given responsibility for firearms after a past firearms
custodian had been relieved of his responsibilities.


When we compared the NWRS armory firearms inventory that was
certified on April 2, 2009, to our April 20, 2009 physical inventory of
those firearms, we discovered over 100 firearms that were not in the
armory as indicated in the official inventory records. We also found
several firearms on the inventory were listed as assigned to personnel
who had retired in 2004, as well as other firearms that had been
assigned to personnel who had resigned and now works for the
Department of Homeland Security. Firearms that had been
documented elsewhere as destroyed were still listed on current
inventories.




                    Example of FLETC cached firearms.


In response to our observations, the chief of NWRS law enforcement
told us that the NWRS armory had a history of poor firearms
accountability. He recalled sending a deputy chief to FLETC in 2006
to reconcile the number of firearms stored at the armory, which were
last inventoried in 1999. Subsequent to our June 10, 2009 interview,




               Page 6

 
the chief reported to us that he has assigned a supervisor to continue
reconciling NWRS’ firearms inventory at FLETC.


Our findings at the U.S. Park Police (USPP) New York Field Office
(NYFO) further highlighted our concerns over disconcerting
attitudes towards firearms accountability and security. Original
property receipts were stored in a plastic bag, abandoned and
personal weapons were intermixed with government-owned
firearms, and gun safes containing a silenced machine gun and other
firearms were unlocked. An unknown number of keys had been
issued to the firearms storage area, firearms custodians were
unaware of the number of guns in their inventory or their origin, and
guns physically present were not listed on the inventory. Three
weapons originally purchased in 1993 (two of which were never
used), and which are now obsolete, were reported as missing. They
were subsequently discovered at the abandoned USPP firearms range
during the course of our assessment. USPP could not tell us when
those guns were last inventoried or had been physically seen.




     Plastic bag containing property receipts for USPP NYFO firearms.


Upon discovering the physical conditions of the NYFO armory and
the management of their firearms, we notified the USPP Chief about
our observations. The chief subsequently ordered an investigation be
conducted regarding the three missing weapons. He also ordered the



             Page 7

 
armory moved to a more appropriate location under new
supervision, a complete audit of the firearms property management
function, and inventory of all weapons. The deputy chief confirmed
that these tasks had been completed.


Not all firearms caches were so haphazardly managed. We found
numerous examples of firearms caches which were overseen with due
diligence and an elevated respect for the inherent risk in managing
dangerous property.


For example, the Bureau of Land Management (BLM) employs a full-
time firearms coordinator who manages a cache inventory of over
300 law enforcement firearms at the National Interagency Fire
Center in Boise, ID. We found that the firearms coordinator
employed sound inventory practices in accounting for his cached
weapons. The firearms coordinator is the single point for firearms
distribution and has direct contact with BLM property management
personnel, enabling him to update firearms inventory records in a
timely manner.


FWS has a designated firearms coordinator at FLETC who exhibited
similar levels of concern over the accountability of its firearms. Law
enforcement firearms were properly inventoried and accounted for at
most sites we visited. We were told by the FWS Chief of the Office
of Law Enforcement that a concerted effort is being made to
designate FLETC as his bureau’s sole firearms coordination site.


Although we did not conduct an assessment of National Park Service
(NPS) firearms similar to GAO’s 2003 study, we found that NPS had
properly inventoried and accounted for firearms at most sites we
visited. NPS has also designated a full-time firearms coordinator at
FLETC who appears to diligently account for and control firearms
under her responsibility.


We found that the Bureau of Reclamation (BOR) maintained
accurate inventories of its cached firearms at Hoover and Grand
Coulee Dams. Each of these locations has comprehensive inventory
controls to manage and secure stored firearms.



             Page 8

 
MANAGING FIREARMS    Three law enforcement chiefs told us that they have developed
INVENTORIES          indifference toward the property management system and do not
                     trust the accuracy of its records. The process in current Department
                     property management systems used to account for law enforcement
                     firearms is fraught with inaccuracies incurred through poor system
                     and data control. For the most part, firearms are initially assigned or
                     transferred to law enforcement personnel through the use of
                     Department property management forms. These forms require dated
                     signatures from both parties involved in the transaction. Forms are
                     then processed locally and sent to a regional office where official
                     inventory records are expected to be updated by property
                     management personnel.


                     We discovered many instances where property management forms
The chief of FWS
                     involving law enforcement firearms had never been processed or
law enforcement
                     even sent to property management personnel. In some cases,
commented he
had never seen an    property management forms sent for processing had never been
accurate             completed years after they had been sent to their respective regional
inventory in his     offices. Consequently, it is nearly impossible for the Department, as a
20 years of          whole, to determine where its law enforcement firearms are actually
service.
                     located. Ultimately, inaccuracies and lack of internal controls afford
                     greater opportunities for accountability shortfalls


                     Additionally, we identified greater firearms accountability issues
                     within NWRS, which does not have a designated firearm coordinator.
                     During our interview with the NWRS Deputy Chief of Training at
                     FLETC, he lamented the need for a designated firearms coordinator.
                     A similar concern was echoed by a senior Bureau of Indian Affairs
                     (BIA) law enforcement manager.


                     We observed that law enforcement programs that displayed the
                     utmost diligence in cached firearms accountability had implemented
                     secondary systems to manage their law enforcement firearms
                     inventories. These programs also employed full-time firearms
                     coordinators. In addition, these programs verified firearms on
                     occasions other than official yearly inventories to confirm an officer’s
                     possession of an assigned firearm. Those programs confirmed the




                                  Page 9

                      
                       officer’s possession of the firearm during semi-annual qualification

“…a firearm is         courses and unannounced inspections.
treated like a
truck or a shovel;     We note that the Department is in the process of implementing its
there’s no             new Financial and Business Management System (FBMS), which will
difference.”
                       consolidate the majority of DOI financial management programs into
Senior Law             one system. A FBMS senior manager told us this system is capable
Enforcement Official   of allowing an employee to electronically sign for issued personal
                       property thus eliminating paper transactions resulting in more
                       accurate inventory accountability.


                           RECOMMENDATIONS 
                           2. NWRS should immediately establish a baseline inventory and
                           effective firearms management process.

                           3. Each law enforcement program should establish a designated
                           national firearms coordinator. 




                                     Page 10

                        
MISSING FIREARMS    All Departmental law enforcement programs require that missing or
                    stolen assigned firearms be immediately reported and investigated.
                    The Department also requires that all missing firearms be reported
                    to the Office of Law Enforcement and Security (OLES) through
                    Serious Incident Reporting procedures. Despite these requirements,
                    we found that weapons missing from firearms caches are handled
                    differently and are less likely to be reported as missing or
                    investigated. Instead of handling missing cache firearms the same as
                    a missing assigned firearm, in most cases, missing cache firearms
                    discovered during annual property inventories are simply treated as
                    inventory discrepancies or paperwork errors. It is not until the
                    firearms inventory is completed and supporting documents are
                    reviewed, sometimes days or months later, that a weapon may be
                    considered missing and reported as such.


                    How missing firearms are reported varies among bureaus and their
There are no
                    individual office locations. In most cases, the person responsible for
specific
Departmental or     maintaining the firearms inventory is also the person responsible for
bureau guidelines   reporting missing weapons. Many individuals we interviewed could
for reporting       only describe procedures used to investigate missing weapons in
missing cache       general terms. Concerns over the inherit dangers that these missing
firearms.
                    firearms pose to public safety should necessitate a sense of urgency
                    for bureaus to make every effort to locate missing weapons; however,
                    we found some cases where bureaus did not always report, or report
                    in a timely manner, missing firearms.


                    We found that in some cases, missing weapons are merely reported
                    to a Board of Survey with little or no documentation and then
                    requested to be removed from an office’s inventory. In other cases,
                    criminal or administrative investigations of the missing firearm are
                    conducted depending on the circumstances of the loss. In many
                    cases nothing is done, and the weapons remain on the inventory for
                    weeks or even years without any action being taken.

                    The Department’s inventory process exacerbates this problem by
                    failing to provide a mechanism for more frequent inventories or
                    timely entries into property management systems. Most of the
                    individuals charged with the responsibility of maintaining firearms



                                 Page 11

                     
caches told us that they do not have the authority to access or update
this system and had to rely on others in regional offices to enter
inventory data. As a result, inventory information maintained in the
system is incomplete and rarely accurate. Furthermore, timeliness
for updating this system varied between bureaus from days to years.
Consequently, we were unable to determine how many weapons were
missing from each law enforcement program.

According to the director of OLES, “a weapon is a weapon, either in a
cache or on somebody’s hip…they should be reported the same.” We
found that this sentiment is not consistently understood by those
responsible for maintaining firearms inventories.


    RECOMMENDATION 
    4. OLES should revise existing policy to direct that lost or
    missing cached firearms must be reported and investigated
    similar to lost or missing assigned firearms. 




              Page 12

 
TRAINING    Employees must be made aware of their responsibilities related to
            firearms control in order to be accountable for safeguarding firearms.
            We found frequent instances where the inventory of firearms was
            delegated to a lone law enforcement officer who had no formal
            property management training and had not been briefed on
            inventory responsibilities. None of the law enforcement programs
            we reviewed required the firearms custodial officer to be formally
            trained in standardized inventory procedures.


            Few of the individuals we interviewed have attended any type of
            formal training. Instead, we were told inventory education is
            regularly obtained through on-the-job training or institutional
            knowledge passed down over time. The lack of management-dictated
            firearms inventory training lessens the importance of overall
            firearms accountability, makes responsibilities related to firearms
            control unclear, and results in difficulties in holding appropriate
            individuals accountable for failing to follow established procedures.


            Many of the people we interviewed were unaware that online
            inventory management training exists through DOI Learn operated
            by the Department’s National Business Center. Despite FWS’
            specific efforts to provide online property management training,
            most FWS and NWRS law enforcement personnel did not know that
            this training existed. Those assigned to property management
            agreed that formal training should be provided.


            We discovered that noncommissioned administrative personnel are
            also involved in conducting firearms inventories, have access to
            firearms caches at some locations, and may not possess the requisite
            firearms safety training when handling weapons during inventories.


                RECOMMENDATIONS 
                5. The Department should develop mandatory training for
                custodial and accountable property officers charged with
                maintaining law enforcement firearms inventories.

                6. Firearms should only be handled by those employees who
                have received firearms safety training.




                          Page 13

             
ACQUISITION,      Firearms acquisition and disposal is a disparate process across the
RETENTION, AND    Department’s law enforcement programs. While some law
                  enforcement programs acquire firearms through a central purchasing
DISPOSAL 
                  program, others purchase firearms on a regional or local basis
                  without the immediate knowledge of property management officials.
                  Acquiring firearms in this manner limits the ability of law
                  enforcement officials to accurately account for their firearms
                  inventories.


ACQUISITION       We discovered that BLM, FWS, and NWRS acquired firearms used to

                  conduct undercover investigations through court-ordered forfeitures.
                  While we were told the number of forfeited weapons was low, the
                  Department has not issued any guidance to bureaus on documenting
                  forfeited weapons and their subsequent use in these operations. This
                  lack of Departmental guidance provides an opportunity for forfeited
                  weapons to be converted to personal use rather than being placed in
                  the bureau’s official firearms inventory.


RETENTION         Some sites we visited had acquired weapons that could not be

                  associated to an operational function of the bureau. For example, we
                  found a shotgun stored at the Patuxent Research Refuge that was
                  confiscated from a citizen but had no apparent official status. Not
                  until OIG investigators announced a site visit did law enforcement
                  and management attempt to determine an appropriate status for this
                  firearm. It took a telephone call to a retired law enforcement officer
                  to learn the shotgun was confiscated from a citizen several years
                  prior and should have been returned to the owner.




                                 Page 14

                   
                             Two assault weapons located in NYFO firearms storage closet.


                     In another case, we discovered two assault weapons stored in the
A senior law
                     NYFO firearms storage closet that were not listed on the official
enforcement
executive who has    inventory. Both weapons were labeled “safe keeping private owner
spent 30 years in    abandoned.” We received two conflicting accounts about how these
NWRS told us he      weapons came into USPP custody when we questioned the office’s
knows that           firearms custodians about those weapons. One explained that they
refuges “squirrel”
                     had been turned in approximately 18 years ago by a private citizen
away firearms.
                     after the assault weapons ban went into effect. The other told us that
                     the weapons had been seized as evidence during a criminal
                     investigation but were no longer needed. Neither firearms custodian
                     could tell us why the weapons were still being stored.


                         RECOMMENDATIONS 
                         7. All firearms acquisitions should be approved by the
                         program’s chief of law enforcement.

                         8. OLES should develop guidance for the conversion of court-
                         ordered forfeited firearms to government use.



DISPOSAL             Similar to the acquisition of law enforcement firearms, we found the

                     process for destroying excess or inoperable law enforcement firearms
                     varied throughout the Department. For example, NPS generally uses
                     its Springfield Armory as a central repository for the destruction of



                                   Page 15

                      
its firearms; however, NPS FLETC personnel destroy their firearms
locally due to the cost of shipping weapons to Springfield, MA.
Officials at other sites we visited described various methods and
processes used to destroy their firearms locally. Despite their ability
to do so, some bureaus have simply procrastinated or chose not to
destroy obsolete or inoperable firearms.




                       Excessive cached firearms at Okefenokee NWR.


The Department has not issued any guidance to bureaus regarding
the timely disposal of law enforcement firearms. The General
Services Administration (GSA), however, provides guidance through
GSAXcess® to any agency seeking reduction in its weapon caches
through an online means of reporting excessive property to other
government entities looking to acquire specific property.
GSAXcess® has other avenues by which weapons could be given to
authorized state and local police departments. Furthermore, GSA
provides guidance in the destruction of firearms through the Federal
Property Management Regulations.4


    RECOMMENDATION 
    9. The Department should direct bureaus to comply with GSA
    standards for the disposal of firearms. 

                                                            
4   41 C.F.R. § 101-42.1102-10.



                       Page 16

 
SECURITY OF        Despite the inherent dangers of firearms, neither the Department nor
FIREARMS CACHES    the bureaus have established specific security standards for their
                   storage. While most firearms caches we observed were stored in a
                   gun safe or had a similar type of controlled access, the level of
                   physical security of those storage areas varied greatly. At minimum,
                   all firearms storage areas are restricted from public access.


                   BOR locations have multi-layered security systems and store cache
                   firearms in rooms similar to a bank vault. Each location is protected
                   by intrusion detection alarm systems and closed circuit television
                   (CCTV) surveillance camera systems that are continuously monitored
                   by onsite law enforcement and security personnel. Vault-like doors
                   containing combination locks along with electronic access control
                   devices are used to control access to firearms storage areas. Direct
                   access to the actual firearms is further restricted to those law
                   enforcement officers authorized to issue firearms.


                   Similar to the BOR facilities, all DOI firearms caches stored at
                   FLETC are kept in a secure building that is protected by intrusion
                   detection alarm systems and CCTV surveillance camera systems that
                   are continuously monitored by FLETC security personnel. Weapons
                   storage areas within the building are further segregated from each
                   other by locked steel cages. Authorized personnel only have access to
                   their specific storage area.


                   Most of the firearms storage areas we observed in BIA, FWS, NPS,
                   and USPP field locations were similarly protected with intrusion
                   detection alarm systems and CCTV surveillance camera systems. The
                   majority of these field locations also restrict access to firearms
                   storage areas to authorized law enforcement personnel; however, a
                   number of the firearms custodians could not tell us when new key
                   locks were installed or combinations changed on firearms storage
                   areas or gun safes.


                   The BLM firearms storage closet was protected by an intrusion
                   detection alarm system, but was not designed to prevent access
                   through the ceiling. In addition, both law enforcement and civilian




                                Page 17

                    
administrative personnel were provided the alarm access code to the
closet.


We also discovered firearms being stored at some BIA, NWRS, and
USPP facilities with only rudimentary security protection in place.
For example, one BIA agency office and a NWRS refuge store their
firearms in gun safes situated in office areas accessible to anyone in
their buildings. Both buildings have no security systems other than a
lock on the door.


Another refuge stores firearms at its headquarters office, visitor’s
center, and horse stable. Although firearms are stored in gun safes at
these three locations, none of the buildings are protected by
electronic security systems. The intrusion detection alarm at the
visitor’s center was disabled due to the number of false alarms being
generated.


The firearms cache at the USPP NYFO was stored in a locked room;
however, neither of the two firearms custodians responsible for those
weapons was able to tell us who had been issued keys to the room or
when the locks had been changed.



    RECOMMENDATION 
    10. OLES should develop minimum physical security standards
    for firearms caches. 




             Page 18

 
RECOMMENDATIONS    1.   The Department should reclassify firearms from sensitive to
                        dangerous property and establish inventory guidance
                        commensurate to this enhanced classification.


                   2. NWRS should immediately establish a baseline inventory and
                      effective firearms management process.


                   3. Each law enforcement program should establish a designated
                      national firearms coordinator.


                   4. OLES should revise existing policy to direct that lost or missing
                      cached firearms must be reported and investigated similar to lost
                      or missing assigned firearms.  


                   5. The Department should develop mandatory training for
                      custodial and accountable property officers charged with
                      maintaining law enforcement firearms inventories.


                   6. Firearms should only be handled by those employees who have
                      received firearms safety training.


                   7.   All firearms acquisitions should be approved by the program’s
                        chief of law enforcement.


                   8. OLES should develop guidance for the conversion of court-
                      ordered forfeited firearms to government use.


                   9. The Department should direct bureaus to comply with GSA
                      standards for the disposal of firearms.


                   10. OLES should develop minimum physical security standards for
                       firearms caches.




                                Page 19

                    
                       How to Report
          Fraud, Waste, Abuse, and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone, Office of Inspector
General staff, departmental employees, and the general public. We actively solicit allega-
tions of any inefficient and wasteful practices, fraud, and abuse related to departmental
or Insular Area programs and operations. You can report allegations to us by:


Mail:         U.S. Department of the Interior
              Office of Inspector General
              Mail Stop 4428-MIB
              1849 C Street, NW
              Washington, DC 20240


Phone:        24-Hour Toll Free                         800-424-5081
              Washington Metro Area                     703-487-5435
              Fax                                       703-487-5402


Internet:            http://www.doioig.gov/form/hotlinecmp_form.php




                          U.S. Department of the Interior
                            Office of Inspector General
                                 1849 C Street, NW
                               Washington, DC 20240
                                      www.doi.gov
                                     www.doioig.gov
